No. _____

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021

WILLIAM PRUITT,
PETITIONER,
vs.
UNITED STATES,
RESPONDENT.

CERTIFICATE OF SERVICE

KEVIN GOUGH
Georgia Bar No. 303210
501 Gloucester Street, Suite 121
Post Office Box 898
Brunswick, Georgia 31521
(912) 242-5114
Kevingough.firm@gmail.com

ATTORNEY FOR PETITIONER
WILLIAM PRUITT

CERTIFICATE OF SERVICE
STATE OF GEORGIA
COUNTY OF GLYNN

)
)
)

NOW COMES KEVIN GOUGH, who, being first duly sworn, deposes and says:
1.

That I am a member of the bar of the Supreme Court of the United States,

admitted on December 9, 1996.
2.

That on the 26th day of July, 2021, the Petition for Writ of Certiorari in the

above-captioned case was deposited in a United States Post Office mail box located in
Brunswick, Georgia, with first class postage prepaid, properly addressed to the Clerk of the
Supreme Court of the United States and within the time allowed for filing said Petition for
Writ of Certiorari.
3.

That a copy of the Petition for Writ of Certiorari was served on:
Solicitor General of the United States
Room 5614
Department of Justice
10th Street and Constitution Avenue, N.W.
Washington, D.C. 20530
United States Attorney - Southern District of Georgia
100 Bull Street
P. O. Box 8999
Savannah, GA 31412

Dated at Brunswick, Georgia, this 26th day of July, 2021.
/s/ Kevin Gough
Georgia Bar No. 303210
ATTORNEY FOR PETITIONER
WILLIAM PRUITT

